<html>
<title> - SECURING THE FUTURE OF AMERICAN AGRICULTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


              SECURING THE FUTURE OF AMERICAN AGRICULTURE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                      IMMIGRATION AND CITIZENSHIP

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2019

                               __________

                           Serial No. 116-14

                               __________

         Printed for the use of the Committee on the Judiciary
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-331 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="11617e517264626579747d613f727e7c3f">[email&#160;protected]</a>               
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.,
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                                 
                                 ------                                

              SUBCOMMITTEE ON IMMIGRATION AND CITIZENSHIP

                     ZOE LOFGREN, California, Chair
                PRAMILA JAYAPAL, Washington, Vice-Chair
J. LUIS CORREA, California           KEN BUCK, Colorado,
SYLVIA R. GARCIA, Texas                Ranking Member
JOE NEGUSE, Colorado                 ANDY BIGGS, Arizona
DEBBIE MUCARSEL-POWELL,              TOM McCLINTOCK, California
  Florida                            DEBBIE LESKO, Arizona
VERONICA ESCOBAR, Texas              KELLY ARMSTRONG, North Dakota
SHEILA JACKSON LEE, Texas            W. GREGORY STEUBE, Florida
MARY GAY SCANLON,
  Pennsylvania
                    David Shahoulian, Chief Counsel
                    Andrea Loving, Minority Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                             April 3, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Zoe Lofgren, California, Chair, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     1
The Honorable Ken Buck, Colorado, Ranking Member, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     3
The Honorable Doug Collins, Georgia, Ranking Member, House 
  Committee on the Judiciary.....................................    39

                               WITNESSES

Mr. Arturo Rodriguez, Former President, United Farm Workers
  Oral Statement.................................................     6
  Prepared Statement.............................................     9
Mr. Tom Nassif, President and CEO, Western Growers
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Ms. Areli Arteaga
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Mr. Bill Brim, President, Lewis Taylor Farms, Inc.
  Oral Statement.................................................    27
  Prepared Statement.............................................    30

          LETTERS, STATEMENTS, ETC. SUBMITTED FOR THE HEARING

Prepared Statement of Alianza Nacional de Campesinas; Submitted 
  by the Honorable Zoe Lofgren...................................    43
Prepared Statement of Comite de Apoyo a los Trabajadores 
  Agricolas (Farmworkers Support Committee, or ``CATA''); 
  Submitted by the Honorable Zoe Lofgren.........................    46
Prepared Statement of Centro de los Derechos del Migrante (Center 
  for Migrant Rights); Submitted by the Honorable Zoe Lofgren....    49
Prepared Statement of Farmworker Justice; Submitted by the 
  Honorable Zoe Lofgren..........................................    52
Prepared Statement of Student Action with Farmworkers; Submitted 
  by the Honorable Zoe Lofgren...................................    63
Prepared Statement of United Fresh Produce Association; Submitted 
  by the Honorable Zoe Lofgren...................................    66
Letter from a coalition of over 140 immigration and agricultural 
  organizations; Submitted by the Honorable Zoe Lofgren..........    68

                                APPENDIX

Statement of the Honorable Gregory Stuebe, and Questions for the 
  Record for Mr. Arturo Rodriguez, Mr. Tom Nassif, and Mr. Bill 
  Brim...........................................................    90
Responses to Questions for the Record from Mr. Arturo Rodriguez, 
  Former President of United Farm Workers........................    93
Responses to Questions for the Record from Mr. Tom Nassif, 
  President and CEO of Western Growers...........................    94
Responses to Questions for the Record from Mr. Bill Brim, 
  President of Lewis Taylor Farms, Inc...........................    96

 
              SECURING THE FUTURE OF AMERICAN AGRICULTURE

                              ----------                              


                        WEDNESDAY, APRIL 3, 2019

                        House of Representatives

                       Committee on the Judiciary

              Subcommittee on Immigration and Citizenship

                            Washington, DC.

    The subcommittee met, pursuant to call, at 12:08 p.m., in 
Room 2141, Rayburn Office Building, Hon. Zoe Lofgren [chairman 
of the subcommittee] presiding.
    Present: Representatives Lofgren, Jayapal, Correa, Garcia, 
Neguse, Mucarsel-Powell, Escobar, Collins, Buck, Armstrong, and 
Steube.
    Staff present: David Shahoulian, Chief Counsel, 
Subcommittee on Immigration and Citizenship; Betsy Lawrence, 
Counsel; Rachel Calanni, Legislative Aide; Madeline Strasser, 
Chief Clerk; Susan Jensen, Parliamentarian and Senior Counsel; 
Andrea Loving, Minority Counsel; Andrea Woodard, Minority 
Professional Staff Member.
    Ms. Lofgren. So the Subcommittee on Immigration and 
Citizenship will come to order. Without objection, the chair is 
authorized to declare recesses of the subcommittee at any time, 
and we want to welcome everyone to this morning's hearing on 
securing the future of American agriculture.
    I will now recognize myself for an opening statement and I 
would like to say it is my honor to chair this first hearing of 
the Subcommittee on Immigration and Citizenship in the 116th 
Congress.
    I am pleased that we are focusing on an issue of such great 
national importance--the growing labor challenges that are 
damaging the American agricultural sector.
    We have held many hearings on this issue over the past two 
decades. We have examined the need to provide permanent 
residence to the undocumented agricultural workforce, the need 
to reform the H2-A temporary visa program, and even potential 
alternative solutions to meet our agricultural labor needs.
    We have always agreed that a solution is necessary. But 
agreement on that basic principal has not been enough. My hope 
is that today's hearing will be the last on this issue and that 
we will finally find a bipartisan balanced solution to the 
agricultural labor challenges that have vexed us for far too 
long.
    Finding a solution is critical. A robust domestic food 
supply that is stable and safe is a matter of national 
security. Heavy reliance on food imports makes us vulnerable to 
food contamination and epidemic. It can also lead to other 
serious problems including an increased national debt and 
wildly fluctuating market prices.
    From 2004 to 2014, food imports rose by nearly 60 percent 
and now account for nearly one-fifth of the U.S. food supply. 
And although the increase in imported foods can be attributed 
in part to changing consumer demands, systematic labor 
challenges are also a contributor.
    As we know from past hearings, mechanized crops like corn, 
wheat, and soy are not the real problem. The challenge is with 
seasonable labor-intensive crops, largely, fruits and 
vegetables as well as dairy, livestock, and especially crops 
such as mushrooms, some of which are produced year round.
    These require an experience and often flexible workforce. 
While farmers do their best to plan harvests, unexpected 
changes in humidity or temperature can change things quickly, 
giving growers just weeks or days to pick valuable crops.
    If harvest workers cannot be quickly located, significant 
crop loss can occur, the cost of which ripples through our 
economy down to the consumer.
    The number of self-employed and family farms has declined 
significantly over the past several decades and fewer U.S. 
workers are turning to agricultural work as their chosen 
pursuit.
    Because of this, the vast majority of today's hired farm 
laborers are foreign born. Unfortunately, our immigration laws 
have not been updated to adequately fill the void and to 
reflect the needs of our 21st century economy.
    For example, our immigration laws provide only 5,000 green 
cards per year to people without Bachelor's degrees. That is 
5,000 green cards not just for those working in agriculture but 
also for those working in landscaping, forestry, hospitality, 
as nannies, and many others where immigrants fill workforce 
gaps.
    And so when people say people ought to get in line, it is 
worth pointing out there is no line to get into. Although 
undocumented workers continue to comprise about half of the on-
the-farm workforce, that workforce is aging and replacement 
workers are dwindling due to increases in border and interior 
enforcement and an improving Mexican economy and, as a result, 
more and more employers are shifting to the H2-A temporary AG 
worker program.
    In fiscal year 2018, nearly 200,000 H2-A visas were issued, 
more than triple the number issued in 2012. But the H2-A 
program has been sharply criticized by both farmers and labor 
groups.
    Farmers claim the program is too burdensome and expensive, 
and labor groups say that it fails to protect U.S. wages and 
prevent the abuse and exploitation of foreign workers.
    Currently, the H2-A program needs our attention. But even 
with much-needed reforms, the program alone cannot meet our 
labor needs. Current farm workers remain a critical component 
of the total agricultural labor force.
    They have been in the U.S. for an average of 18 years and 
have developed knowledge and skills that cannot be easily 
replaced without incurring significant costs.
    These farm workers came here and filled critical needs. 
Many of our constituents are still in business because of them. 
No acceptable solution can fail to deal with this reality.
    We have to find the courage to do what is right, to provide 
a seat at America's table for those who have long grown the 
food we serve on it.
    The right solution is a balanced approach that preserves 
the current workforce, provides a reasonable process for 
employers to bring in future workers, one that is also flexible 
for workers and protects them from abusive situations.
    On January 17th, I introduced the Agricultural Worker 
Program Act of 2019. This bill would provide the ability to 
earn a blue card and, eventually, permanent residence for long-
term agricultural workers here in the United States.
    It is my hope that the introduction of this bill, along 
with today's hearing, are the first steps towards finally 
finding a bipartisan and lasting solution to the labor 
challenges that threaten the future of American agriculture.
    I am committing right now and I have been committed to 
working with my colleagues across the aisle to make this hope a 
reality, and today, I am full of hope.
    With that, I would now recognize the ranking member, Mr. 
Buck, for his opening statement.
    Mr. Buck. Thank you, Madam Chairman.
    This hearing is an important opportunity to examine 
America's agricultural labor needs and the role of foreign 
workers, an issue very important to me and the people of 
Colorado.
    We must work toward enacting fundamental agricultural guest 
worker reform that will benefit American agriculture, the 
American consumer, and hungry people all over the world.
    After all, America is the world's breadbasket and its corn 
bushel and its salad bowl and its potato patch and its dairy 
farm.
    This hearing is not about how we handle certain crops.
    Instead, it is about how--about year-round labor-intensive 
agricultural products or products that require additional help 
at certain times of year, such as harvest.
    Colorado provides a great example of the problem we are 
examining today. Leprino Foods is the largest manufacturer of 
mozzarella cheese in the world--in the United States and a 
leading producer of whey protein.
    They have two production facilities in the 4th 
Congressional District of Colorado. When I visited Leprino, I 
heard stories about how they had the capacity and market to 
increase their production. However, Leprino can't ramp up their 
business to meet market demand because the local dairies can't 
produce more milk.
    I also met with those local dairy farmers. They confirmed 
that recruiting employees continues to be the largest challenge 
to their growing businesses in supplying more dairy products 
for this country.
    This is the same story I hear as I visit farm after farm 
across my district. Labor is the life blood of the agriculture 
industry. Without the ability to find and retain a reliable 
workforce, our agriculture industry will continue to struggle 
to meet the market's needs.
    When it comes to labor needs, agricultural labor is in a 
class by itself. There is little debate over whether there are 
enough Americans willing to take on the job of a migrant farm 
worker.
    In fact, over the past several decades, our government has 
only encouraged Americans to abandon such labor, leaving 
foreign workers to fulfill our seasonal agricultural labor 
needs.
    The Labor Department believes that workers who do have 
legal status appear to be leaving farm jobs because of age or 
opportunities for more stable and higher-paying employment 
outside of agriculture and are being replaced almost 
exclusively by unauthorized foreign-born workers.
    What legal labor force options to growers have? Since 1986, 
the H2-A program has provided visas for temporary agricultural 
workers.
    However, over two decades ago, the American agricultural 
industry told this committee that the program was characterized 
by extensive complex regulations that limit employers' ability 
to use the program and by costly litigation challenging its use 
when admissions of alien workers are sought.
    They allege that the Department of Labor was implacably 
opposed to the program. For growers, the H2-A program was 
intended to ensure the availability of a sufficient labor for 
key needs like harvesting.
    But for a program created to dynamically offer labor supply 
to those farmers and ranchers most in demand, timeliness has 
never been a strong suit.
    Two decades later, little has changed. An apple grower told 
us that were it not for the H2-A guest worker program, broken, 
costly, and perilously litigation prone as it is, we would be 
unable to farm at all.
    One of the most frequently cited reasons our region's 
farmers go out of business is that they simply cannot continue 
under the burdens of the current H2-A program.
    The H2-A program itself is designed to fail. It is 
cumbersome and full of red tape. Growers have to pay wages far 
above the local prevailing wage, putting them at a competitive 
disadvantage against growers who use illegal labor.
    Employers must also follow onerous regulations like the 50 
percent rule which requires them to hire any domestic workers 
who show up even after the employer has recruited for U.S. 
workers and welcomed his or her H2-A workers from overseas.
    In short, under H2-A, growers can't get workers when they 
need them. Bureaucrats decide if employers have a full 
workforce, not the weather or crop conditions. Moreover, 
employers constantly face frivolous litigation by those who 
don't think the H2-A program should even exist.
    What growers need is a fair and functional guest worker 
program, one that gives them access to the workers they need 
when they need them at a fair wage with reasonable mandates.
    Growers need a partner agency in the federal government 
that treats them as allies, not as adversaries.
    I look forward to hearing from today's witnesses and I 
yield back the balance of my time.
    Ms. Lofgren. Thank you very much.
    Other members are invited to submit their opening 
statements for the record, and before introducing our 
witnesses, I would like to welcome the son of Mr. Steube of 
Florida to our panel. It is wonderful to see the new generation 
sitting with his dad to listen to this.
    And I also would like to note that we have our colleague, 
Mr. Jimmy Panetta, sitting here listening, and he is joined by 
two other members, I know, who are on their way who have put 
immense effort into this effort, and that is Congressman T.J. 
Cox and Congressman Josh Harder, who have been essential in 
terms of their support of our efforts.
    I would like to introduce today our witnesses. Arturo 
Rodriquez has served as the president of the United Farm 
Workers from 1993 to 2018, succeeding the organization's 
esteemed founder, Cesar Chavez.
    As president of the UFW, Mr. Rodriguez worked with 
lawmakers and agricultural organizations in pursuit of 
legislation to protect the rights of workers and to reform our 
immigration laws.
    He has previously testified before the House and the 
Senate, including this subcommittee, to discuss the important 
contributions of immigrant farm workers to the American 
agricultural industry, and we warmly welcome him back to the 
subcommittee.
    Tom Nassif began his tenure as president and CEO of Western 
Growers in 2002. Prior to this, he served under the Reagan 
administration in many capacities, including White House deputy 
and acting chief of protocol, deputy assistant secretary of 
state for Near East and South Asian affairs as well as 
ambassador to Morocco.
    Mr. Nassif has testified before the Senate on labor issues 
in the agricultural industry and we welcome him today.
    Areli Arteaga was born and raised in the United States and 
grew up on a dairy farm in Idaho. Ms. Arteaga comes from a 
family of farm workers. Her mother has worked on farms, 
harvesting an assortment of crops, and her father has more than 
20 years of experience in dairy, and her uncle works seasonally 
in the H2-A temporary visa program.
    She graduated from the University of Idaho in 2017 with a 
Bachelor of Science in economics and political science, and is 
an alumna of the College Assistant Migrant Program. Ms. Arteaga 
now works with the United Farm Workers and we are happy to 
warmly welcome you.
    And finally, but not least, Mr. Bill Brim and his partner, 
Ed Walker, purchased Lewis Taylor Farms in Tifton, Georgia, in 
1985 and transformed the company into a diversified transplant 
and vegetable farm operation.
    Lewis Taylor Farms was one of several farms in Georgia to 
organize a farm labor association in 1988 during the farm labor 
shortage and is one of the first farms in Georgia to be 
recognized as a good agricultural practices, or GAP, certified 
farm.
    Mr. Brim was recognized as Georgia's Sun Belt Farmer of the 
Year in 2009 and has previously testified before the House and 
the Senate on agricultural issues.
    At this time, I would welcome all of our distinguished 
witnesses to stand and be sworn in. If you would please raise 
your right hand.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    [A chorus of ayes.]
    Ms. Lofgren. Thank you very much. The witnesses have all 
said yes and we would like to thank you for being here today.
    Let each of you understand that your written statements 
will be entered into the record into their entirety and so we 
would ask that you summarize your testimony in about five 
minutes.
    And to help you stay within that time, there is a timing 
light. When the light switches from green to yellow that means 
you only have one minute left. And so we would ask you to start 
summarizing when that happens. When it turns red, your time has 
expired.
    So we will begin with you, Mr. Rodriguez, and then down the 
line. If you could proceed.

TESTIMONIES OF ARTURO RODRIGUEZ, FORMER PRESIDENT, UNITED FARM 
WORKERS; TOM NASSIF, PRESIDENT AND CEO, WESTERN GROWERS; ARELI 
  ARTEAGA FORMER FARM WORKER AND CHILD OF FARM WORKERS; BILL 
           BRIM, PRESIDENT, LEWIS TAYLOR FARMS, INC.

                 TESTIMONY OF ARTURO RODRIGUEZ

    Mr. Rodriguez. Thank you very much.
    Ms. Lofgren. I am not sure--yes, there you go.
    Mr. Rodriguez. Got it. Thank you very much, Chairwoman 
Lofgren, Ranking Member Buck, and members of the subcommittee. 
Thank you for the opportunity to testify today.
    I am joined today by Martha Montiel, Eugenia Gonzalez, 
Vicente Reyes, Adelaida Mendoza, Rogelio Lona, Sidronio 
Jimenez, Francisco Naranjo, Leobardo Padilla, and Miguel 
Vasquez.
    Collectively, these women and men have more than 200 years 
of experience working in agriculture and they have planted, 
cared for, harvested and produced vegetables, mushrooms, 
citrus, tomatoes, nuts, wine grapes, and milk.
    We feed you. We feed people throughout the country without 
regard to region of the country, race, gender, age, ability, or 
whether they are Republicans or Democrats. And so it is time--
it is past time to change our immigration laws.
    The women and men who are professional farm workers have 
earned the right to apply for legal status and the agricultural 
employers that farm workers partner with to feed America 
deserve stability and more certainty, given all the challenges 
we face in agriculture.
    We are ready to work with members of both political parties 
to come up with policy that honors those who feed us and 
respects a nation of laws.
    There is an ugly race-based history of federal law 
excluding farm workers from the same basic labor protections as 
other workers, including the Fair Labor Standards Act and 
worker protection regulations and pesticide registrations.
    Present-day biases against farm workers and rural 
communities include the fact that chemicals like chlorpyrifos, 
which have been shown to lower IQ in children, are banned 
everywhere else but continue to be permitted in agriculture.
    According to the federal government, at least half of our 
agriculture workforce does not have legal status. The 
agriculture visa program--the H2-A program--has tripled in size 
from 82,000 positions certified in 2008 to over 240,000 
positions certified in 2018. But the fees have stayed the same 
since the 1980s.
    The difficulty of agricultural work and the uneven 
enforcement of laws have meant all kinds of farm workers have 
suffered. Miguel Vasquez, a worker on H2-A visa, died while 
picking tomatoes in 95-degree heat in Georgia, just one of 
dozens of farm workers that have died in the last 10 years 
because they did not have proper access to water, shade, or 
breaks.
    Dairy workers in Washington State and Idaho have died 
gruesome deaths, drowning in manure ponds. In 2017, the U.S. 
Department of Labor found a group of farm workers in the H2-A 
program housed in converted school buses, roasting in the hot 
Arizona sun.
    Last week, Maria Gonzalez from Washington State and Librada 
Paz from New York State shared in a congressional briefing 
their fight against sexual harassment and assault.
    And yet, overwhelmingly when asked what farm workers most 
enjoy about their work you will hear over and over again a 
pride in feeding the rest of the country and many parts of the 
world.
    The goal of any new immigration proposal should be 
improvements in farm worker wages and working conditions. These 
need to be--these need to be an end to the status quo of 
poverty and abuse.
    Farm workers cannot continue to be second class workers. 
Unless this changes, there will always be challenges attracting 
a stable workforce. The employers who have led unfair treatment 
should not be at a competitive disadvantage by employers 
breaking the law.
    A new immigration program should be based on a very few set 
of principles: fairness, equality of treatment. Temporary 
workers should have the right--the same rights and protections 
including access to the courts as U.S. workers.
    Women and men should receive equal treatment, no 
discrimination, economic freedom and opportunity, family unity, 
eligible to earn lawful permanent residency. The United Farm 
Workers and grower associations have come together after 
sometimes tough negotiations on immigration policy that makes 
sense for the United States.
    That is notable because we have opposed each other in most 
other legislative fights. But I am confident we will come to 
agreement again on immigration policy that will ensure 
America's food supply, improve the lives of farm workers, and 
ensure agriculture employers can continue to be successful.
    In fact, just a few weeks ago, pesticide manufacturers, 
agriculture employers, farm workers, and major forces within 
our food supply worked with Congress on a bipartisan basis to 
set aside differences to come together and achieve sensible 
solutions that are good for workers, consumers, and American 
agriculture when Congress unanimously reauthorized the 
Pesticide Registration and Improvement Registration Act.
    You can do it again. We can do it again. Let us work 
together, farm workers and agriculture employers, Republicans 
and Democrats, each region of the country, to make sure we are 
able to continue to feed America.
    Thank you very much.
    [The testimony of Mr. Rodriguez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Thank you very much, Mr. Rodriguez.
    Mr. Nassif, we would love to hear from you.

                    TESTIMONY OF TOM NASSIF

    Mr. Nassif. Thank you, Chairwoman Lofgren, Ranking Member 
Buck, and distinguished members of the subcommittee. Thank you 
for the opportunity to testify this morning.
    Thank you for choosing to shine a light on the labor needs 
of agriculture and your tireless work to provide much-needed 
solutions.
    My name is Tom Nassif and I am president and CEO of Western 
Growers. Our members are small, medium, and large 
agribusinesses that produce, pack, and ship, roughly, half of 
the annual fruit, vegetables, and three-quarters of the tree 
nuts in the United States, grown both conventionally and 
organically.
    Although our membership extends throughout the entire 
United States and beyond, our members are headquartered in 
California, Arizona, Colorado, and New Mexico.
    There are certain facts that I don't believe anyone should 
question. The first fact is that working in the fields is, 
obviously, physically demanding labor. There is insufficiency 
as far as the availability of a legal labor force.
    Those taking these jobs are not displacing those here 
legally, since regardless of pay and other benefits they just 
don't want to do this kind of work, and understandably.
    The majority of those falsely documented or here illegally, 
however you want to phrase it, pay their state and federal 
income taxes as well as contribute to Social Security without 
any hope of ever collecting it--law abiding and proud to grow 
food for this nation and other nations alike.
    And if there is serious disagreement over any of these 
facts, I ask you to commission a bipartisan study to either 
validate or debunk the allegations I have just made.
    You have come very close to passing immigration reform in 
agriculture several times--Senate Bill 744 in 2013 and, most 
recently, in 2018. We have been unsuccessful because we have 
been divided in our goals and in our needs.
    Only by pledging allegiance to the collective needs of 
agriculture can we dissuade others from seizing upon these 
internal divisions and proffering legislation that does not 
meet the needs of the whole.
    What we ask is based upon the economic future needs of our 
industry. It is in no part political. There are also strong 
humanitarian interests at play as well.
    Some of our pressing needs would include a legal status for 
our long-standing reliable existing workforce and their 
families without the need for a touchback; an H2-A remake that 
is not an administrative nightmare that does not price our 
producers out of business; the ability to fill all of our jobs 
without the burden of a cap.
    Since these workers are not taking work away from those 
legally eligible to work, there is no displacement, and there 
is no economic model that would justify hiring more workers 
than are needed.
    And lastly, establish E-Verify for agriculture only after 
the law is implemented and operable so that we have adequate 
enforcement.
    Now, to succeed in resolving a decades-long effort to 
correcting mistakes--the mistakes of the past and the present--
we need a bipartisan bill that would have a reasonable chance 
of being signed by the president.
    It will take statesmen and women of the highest order to 
find a pathway to compromise. It will take the same 
reasonableness on the production side, knowing we must be 
willing to accept less than an optimal resolution and try to 
understand the political dynamics which make difficult changes 
to our immigration system in any form.
    We are prepared to work with all due diligence needed to 
reach these objectives. There is no path to immigration reform 
unless the solution is bipartisan, approaching this difficult 
task with a heart at peace and not a heart at war.
    And finally, I would also to say a special word about our 
colleagues in the dairy industry. As you all know, the dairy 
industry, like the fresh produce industry, has been hit 
particularly hard with labor issues.
    Due to definitions in the existing H2-A visa program, 
farmers are not able to participate--not dairy farmers. 
Specifically, since dairy farming is considered a year-round 
activity, dairies are unable to qualify under the seasonality 
provisions of the H2-A program.
    As labor markets have tightened, dairies are increasingly 
being adversely impacted. For many dairies across the country, 
small, medium, and large, labor problems are endemic and many 
are on the verge of collapse.
    I appreciate your allowing me the testimony and I look 
forward to your questions. Thank you very much.
    [The testimony of Mr. Nassif follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Thank you very much.
    And now we will hear from Ms. Arteaga.

                   TESTIMONY OF ARELI ARTEAGA

    Ms. Arteaga. Thank you. Chairwoman Lofgren, Ranking Member 
Buck, members of the committee--of the subcommittee, thank you 
for the opportunity to testify today.
    My name is Areli Arteaga and I am proud to have contributed 
to be a part of a family whose labor feeds this nation.
    I was born and raised in Idaho. Most of my childhood and 
teenage years were spent on a dairy farm where my father 
worked. My mother works in potatoes--of course, being from 
Idaho--but also onions, corn, and carrots.
    My first experience working in the fields was at the age of 
nine. I worked every summer from the age of 15 until I had the 
opportunity to do an internship here in Washington, D.C., this 
being through the Department of Education through the College 
Assistance Migrant Program.
    My father has worked in the dairy industry for 25 years. 
Dairy work is difficult, dangerous, and skilled. My father's 
work is focused on taking care of the health and welfare of the 
cow. My dad typically works about 12-hour days six days a week, 
although when they are short-staffed I have seen him work two 
weeks straight.
    As my father explained to me as a child, cows don't know 
days off. They don't know holidays. They don't know birthdays. 
I have seen my father wake up at 1:00, 2:00, and 3:00 in the 
morning from calls from the--from his job.
    His duties include keeping the paths clear for the cattle, 
helping deliver baby calves, and keeping the cattle alive. He 
is responsible for diagnosing and treating ill cows.
    He is able to identify 800 cows through memorizing them in 
each cow pen. This is extremely important, because if that cow 
is being treated with medication, they need to be milked 
separately so that the milk we drink is not contaminated.
    My father is proudest when he has a sick cow and the cow 
reacts in a positive way. He knows he helped that animal 
survive.
    While my father works year round, like most people in the 
dairy industry, my mother works seasonally. She typically works 
in the onions for about five months, setting, repairing, and 
later removing the irrigation system, as well as weeding the 
onions.
    She does other crops, too. Potato season is about six 
weeks, in which they cut the seeds and later harvest. Corn 
season is also about six weeks. My mother and her co-workers 
have developed strong allergies affecting their health and 
welfare while corn detasseling.
    At other times of the year she also works in the alfalfa 
fields, placing larva trays into bee houses. In a year, there 
are times that she will work three of five of these crops. No 
matter rain, wind, hail, they are out there, producing our food 
for us.
    What I learned in the field is it is not an easy task. It 
takes skill. One of the memories that has resonated with me 
still to this day was one day when we working in the onion 
fields. We were given the task to remove a weed that wraps 
itself around the crop. We were not allowed to use a hoe 
because the onion was too young and we would pull the onion out 
of the ground.
    While I struggled to work on my knees for long hours, my 
mother would loop back around and teach me skills with the 
knife to help me catch up with the rest of the crew.
    I was also surprised when comparing paychecks with my 
college friends that they were being time and a half for an 
eight-hour day when they were working in retail but I wasn't 
paid for overtime hours in the fields that, to be honest, is 
more difficult.
    Don't we deserve overtime pay like other workers? My uncle 
has worked with an H2-A visa for the last several years in 
alfalfa. He comes to Idaho from Mexico for five months each 
year. For many years, as difficult as the work was, my father's 
work at the dairy brought us stability.
    But after years of working at the farm where I grew up, my 
father felt he wasn't being treated fairly and my family was 
stuck. He knew it was time to leave.
    I was in college but my two younger siblings were at the 
family home. My father knew if he left that job he was giving 
up this home. But he did what he thought was best and we were 
found without a home.
    I do wonder what it would be like to be an H2-A visa hold 
where the employer has complete control of their job, housing, 
and visa. My mom and my dad are proud of me and I feel proud, 
having been from Idaho and graduating with a B.S. in political 
science and economics.
    I am proud of my parents and my family because they came to 
this country with just the clothes on their backs. They are now 
contributing to their communities and one of them being by 
their skilled job. I asked my mother what she is most proud of 
and she shared being able to give an education to me and my 
siblings.
    My family are all immigrants and the people we work 
alongside are all immigrants, too. Wherever I go I see the 
people eating the food that we have harvest and drinking the 
milk my father has helped produce.
    It seems that the U.S. immigration doesn't make sense. I 
would like to see my parents treated with the same kind of 
respect that they taught me to show for others.
    Thank you.
    [The testimony of Ms. Arteaga follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Thank you very much, Ms. Arteaga, and I am 
sure that your parents are very proud of you.
    We would like to now invite Mr. Brim to offer his 
testimony.
    Is it not working? Why don't you switch places with Ms. 
Arteaga?
    Mr. Collins. I will have to say, Madam Chair, this is a 
good Georgia boy--if you needed to.

                     TESTIMONY OF BILL BRIM

    Mr. Brim. Okay. Good morning, Chairwoman Lofgren, Ranking 
Member Buck and Collins, and members of the committee. Thank 
you for the invitation to be here today and discuss the labor 
crisis facing agriculture.
    My name is Bill Brim and I am co-owner of Lewis Taylor 
Farms, Incorporated, in Tifton, Georgia. We are a diversified 
specialty crop operation, farming nearly 6,500 acres. We have 
been using the H2-A agricultural visa program for our harvest 
and packing operations to supply our dwindling domestic worker 
workforce for more than 22 years.
    We are blessed to have an abundance of natural resources 
enabling us to grow in this country. But what we do not have 
plenty of is labor, and without a sufficient labor force, our 
other resources are of little use.
    Sufficient labor forces out of our resources are of little 
use and lack of workers is causing serious harm in labor-
intensive agriculture of our domestic food supply. This crisis 
is a direct result of the misguided and outdated federal 
policies that Congress has failed to address.
    So just like any problem that is ignored, the problem does 
not magically get better. It gets worse.
    Each year, more and more farmers quit farming and move 
their labor-intense operations outside of the United States to 
be closer to the labor force. As a result, each year more and 
more Americans are eating imported fruits and vegetables, 
further harming domestic producers.
    In the 1970s, the U.S. was a net exporter of fruits and 
vegetables. Today, we import three times more fruits and 
vegetables than we export.
    Congress established the H2-A temporary agriculture visa 
program nearly 35 years ago in an effort to help farmers who 
met their labor needs when there was a shortage of willing and 
able U.S. workers to do the work.
    But the H2-A program has, from the beginning, been plagued 
with rigid rules, excessive complexities, bureaucracy delays, 
and runaway cost. It is no longer a wonder that it is generally 
viewed as a last resort for most farmers now.
    In recent years, as the labor supply has continued to 
tighten, the U.S. use of the H2-A program has increased. But 
that is not a testament to the H2-A program success. Rather, it 
demonstrates just how dire the labor situation has become in 
the United States of America.
    Farmers are so desperate for labor that they are willing to 
participate in the program and that drastically increases their 
cost, their labor liabilities, and their uncertainties. H2-A 
program must be reformed and modernized so that we can have a 
guest worker program responsive to the needs of 21st century 
agriculture.
    First, I am sure that we will--that we can all agree that 
legal U.S. workers must have the opportunity to take any farm 
jobs before it would be filled by a guest worker. But we should 
also all be able to agree that there are not anywhere near 
enough U.S. workers to fill the farm jobs we have available 
each year.
    We see this reality every day at our farm. For example, 
last year, we had nearly 900 H2-A workers positions available. 
We had 10 U.S. workers who applied, and were hired. Eight of 
them left relatively quickly and two--just two stayed with us 
to complete the season.
    This experience aligned with the Department of Labor data 
that shows on an average just three out of every thousand 
positions certified for H2-A are filled by a U.S. worker.
    This labor problem must be addressed by action in two 
areas. The current H2-A program must be reformed to provide a 
flexible program responsible to the needs of farmers and the 
workers.
    A current farm worker who lacks worker authorization must 
be provided some type of legal status. In my written testimony, 
I mention several issues that need to be addressed in the 
modernized guest worker program. Let me take a moment to 
highlight just a few of them.
    A reformed program must include all sectors of agriculture. 
The current H2-A program is overly restrictive in allowing 
participants only by growers whose need is 10 months or less.
    In many areas of the country, the grower and harvest 
seasons last longer than 10 months and for some agricultural 
operations such as dairy, their need is year round. Other 
operations included on-farm value added processing and packing, 
and those activities should also be included.
    A reformed program must also address the broken wage 
methodology of the H2-A program. This year, several states 
experienced H2-A wages increases of 23 percent. Nowhere in the 
U.S. do wages in any occupation increase 23 percent last year 
except in the H2-A program.
    And remember, the current program also requires a farmer to 
pay all of the other costs of the workers including housing and 
transportation. This is unsustainable.
    I will close with a positive note about the H2-A program. 
The current program has no cap on the number of visas 
available.
    The element has worked very well over the years and enabled 
the program to adopt to market demands. The certification by 
the Department of Labor that there is a shortage of U.S. 
workers serves as a check to ensure guest workers are not 
admitted to the U.S. unless there is need. A reformed guest 
worker program for agriculture must not have a visa cap.
    I hope that Congress will finally fix this problem. This 
labor shortage in agriculture is a national security issue. A 
country that cannot feed itself cannot defend itself.
    Our food is going to continue to be harvested by foreign 
workers. The only question is whether that food will be 
harvested and grown by U.S. growers or in a foreign country.
    Thanks for opportunity to testify today and I look forward 
to answering your questions.
    [The testimony of Mr. Brim follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Thank you very much, Mr. Brim.
    We will have questioning by the members of the 
subcommittee. But before we do, we have been joined by the 
ranking member of the full committee, Mr. Collins, and I would 
like to invite him to make his opening statement, should he 
wish to do so.
    Mr. Collins. Madam Chair, thank you so much for that.
    Before we begin, I must note that, again, I am glad we are 
having this hearing. I want to continue to emphasize not only 
this part of illegal immigration but, as I said earlier today, 
it is hard for me to admit but Jeh Johnson, the former 
secretary, and I actually agree there is a crisis on our 
border--that we do need to talk about all parts of our 
immigration system.
    And the chairlady knows this and we have had many 
conversations about this, so I look forward to continuing that 
because we cannot not take action and simply talk about it. 
This is something we need to do.
    But we are here today to consider another important issue--
the nexus of immigration and agriculture. My congressional 
district in northeast Georgia is home to a vast agriculture 
industry and hardworking farmers, ranchers, growers, and 
processors who contribute to America's economy and our 
communities every day. I am part of that.
    My family and my wife's family are in the poultry industry. 
We have four chicken houses. We know what this is like, and we 
know what our part of the state is.
    In fact, there is over 10,000 farm operators who grow 
everything from peaches to cattle, from chickens to 
strawberries, and I am pleased to have one of Georgia's finest 
here today, Bill Brim. Bill is what we say is Georgia grown and 
we are happy about that and it is good to have you here today.
    I know firsthand also what the farmers face when they try 
to assemble an adequate workforce. Farmers like Drew Echols of 
Jaemor Farms need help harvesting crops. Georgia peaches are 
fickle so timing is everything.
    But the H2-A system offers almost no flexibility. This 
means extra hands may arrive too early or too late to get the 
fruit off the tree and into that homemade pie.
    Worker who arrive before crops have ripened aren't allowed 
to find work on the other farms while they wait. At the same 
time, family operations like Jaemor invest a lot of time and 
money applying for H2-A workers.
    Knowing these applications aren't always processed in time 
to get workers onto American farms. Farmers need a more 
flexible and less bureaucratic system as the agricultural 
industry, including meat processors, strive to put food on 
America's table.
    Right now, to secure an H2-A employee growers must start 
with a Labor Department certification process. By the law--by 
the law, the department must certify that there are not 
sufficient able, willing, and qualified U.S. workers to fill 
these jobs. Employing an H2-A worker will not adversely affect 
the wage or working conditions of similarly employed U.S. 
workers.
    While I believe these requirements were well intentioned, 
we should revisit their implementation since they have an 
expensive and time-consuming side effects, even though we all 
know that growers simply cannot find U.S. workers.
    Most Americans would prefer to work less labor-intensive 
jobs, preferably with air conditioning, even in rural areas 
with long rich agricultural traditions. Farmers often raise 
their children to pursue other lines of work.
    And I will say this. One, as I mentioned Drew just a moment 
ago, Madam Chair, Drew's grand daddy is the start of this farm 
and from his parents on, Jimmy and Valvoreth started that, and 
Drew told the story to me a few weeks ago that when you talk 
about these requirements he would have people who would come 
who are required to go look for work.
    They would come to him and they would say, I would like a 
job. Well, Drew would say, I will hire you right now, and it 
was a very good, you know, wage. He is saying, we will start 
you today--we will go at it, and they said, no, no, no. I don't 
want to work out in the strawberries. I don't want to work 
picking peaches. I want to go work in the shed.
    Well, the family works in the shed. And they said, well, we 
don't have a job down there, and literally they would turn 
around and walk off. So sometimes I think this requirement is 
something we need to, again, look at.
    It is also cost prohibitive, the H2-A program, because many 
times growers must pay over thousands of dollars in fees per 
worker to the government and to recruiters. In many states, 
agriculture employers are required to pay artificially higher 
wages.
    The adverse effect wage rate is over $11 per hour at its 
lowest and over $15 at its highest, depending on the state. On 
top of these costs, growers must provide transportation, 
housing to H2-A workers once they arrive in the U.S.
    So the H2-A employers who are doing their best to follow 
the law are routinely undercut by growers who pay lower wages 
because they use laborers who are not authorized to work.
    This, combined with the lower cost of fruits, vegetables, 
and other agricultural products grown in the country and 
shipped in the U.S. are driving American farmers out of 
business in their current position and, by extension, the 
current H2-A program is simply unsustainable.
    Congress has the ability and responsibility to enact a 
reasonable agricultural guest worker program so growers can pay 
legal workers a fair wage and also make a fair living for 
themselves.
    So what does this look like? That is why we are having this 
hearing today. How are we going to go about that? I commend the 
subcommittee chair for taking this on. I commend my ranking 
member, Ken Buck, for being a part of this and other members of 
this committee.
    We have got to tackle these issues. This is something that 
is inherently dependent on our security and our going forward. 
We will not always agree on the answers but we will need to at 
least ask the questions. Unfortunately, both parties have 
refused to ask some of those questions. It now time we do so.
    Whether it is the crisis on our southern border or the 
crisis on our farms, it is time we give the help that we need.
    And with that, Madam Chair, I yield back.
    Ms. Lofgren. The gentleman yields back, and thank you.
    Before turning to the vice chair of the subcommittee for 
her questions, I would like to ask unanimous consent to put 
into the record the following statements and letters in support 
of the Agricultural Worker Program Act of 2019: a letter from 
the Alianza Nacional De Campesinas, a letter from the 
Farmworkers Support Committee, a letter from the Center for 
Migrant Rights, a statement of farm worker justice, a statement 
of Student Action with Farm Workers, a letter from United Fresh 
Produce Association, and a letter from over 140 immigration and 
agricultural organizations.
    Without objection, that is added to the record.
    [The information follows:]
      

                      CHAIR LOFGREN FOR THE RECORD

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. And Ms. Jayapal is recognized for five 
minutes.
    Ms. Jayapal. Thank you, Madam Chair, and thank you for your 
tremendous work on this issue and so many others within the 
immigration sphere and for having this hearing.
    We are here today to talk about some of the most important 
workers in our country. That is farm workers. Workers who do 
essential back-breaking work growing the food we eat and taking 
care of the livestock.
    These workers are absolutely critical to making our nation 
function and we would be lost without them. And yet, the vast 
majority--some estimates are as high as 75 percent--are 
undocumented and vulnerable to deportation and abuse.
    I come from a state--Washington State--that relies on our 
agricultural industry and on the workers who power that 
industry, and over the years, we have actually been able to 
find bipartisan support for reforming comprehensively the 
immigration system and this as a piece of that, and I hope we 
can get to that place again.
    And so I am proud to be here today to look at what we can 
do to better support our farm workers, not just for the sake of 
the workers in our country and their families but also for 
everyone in our country who depends on these workers to put 
high quality decently-priced food on the table.
    So I want to start with you, Ms. Arteaga. Thank you so much 
for being here and for your articulate and powerful voice on 
this issue.
    Can you tell me briefly, because I only have five minutes, 
as a former farm workers and child of a dairy and farm worker, 
what a regular day looks like?
    Ms. Arteaga. Thank you for the question.
    Working in the field, so you have to wake up at extremely 
early hours of the day. Depending on if you have children, I 
know a lot of mothers out there who wake up at 4:00, 4:30 in 
the morning to make sure that their children's lunch is packed 
and to get out of the house.
    And I just briefly want to describe my day working in the 
corn fields. So I would wake up, and depending on the size of 
the corn and depending on the humidity, I would wear a rain 
suit if it was humid. If it was wet it would be muddy.
    When the corn is young, essentially, what you do is bend 
over and you detassel each corn and, mind you, you are doing 
this on both sides. So you have two rows next to you. During 
mid-day you are sweating crazy because of the rain suit that 
was protecting you in the morning.
    By the time that you are getting later on--further along in 
the harvest seasons--I am 5,3"--the corn reaches to be a lot 
taller than 5,3". I would have to bend the corn so that I could 
detassel them.
    So it is extremely back-breaking work. For example, the 
strawberries--being on your knees 9-, 10-, 11-, 12-hour days, 
it is extremely hard. When parents get home from the fields and 
they want to run and, you know, hug their children, mind you, 
they have been exposed to pesticides all day long.
    Luckily, my mother knew this about--this potential hazard. 
So she would take her clothes off before hugging us. But not 
everybody knows that.
    Thank you.
    Ms. Jayapal. Thank you so much. And there are some people 
that refer to agricultural workers as unskilled workers. In 
your mind, is this an unskilled job?
    Ms. Arteaga. So I don't know if many of you know how to lay 
bee larva in an alfalfa field in a bee house or if maybe you 
have--I know that I, personally--I have a degree and you don't 
want me in charge of your milk. You don't. I have no idea how 
to place an IV on a cow.
    My dad, with 25 years of experience, he is doing this work. 
He is getting calls at 2:00, 3:00 in the morning to give birth 
to baby calves. Whether they are breeched, he knows exactly 
what to do.
    Thank you.
    Ms. Jayapal. How about you, Mr. Brim? Do you find a 
difference between skilled--workers who have been coming back 
year after year? How would you describe this job? Do you see it 
as an unskilled worker job?
    Mr. Brim. Well, I think the basis of what you are talking 
about is what we called unskilled workers are pickers versus 
our tractor drivers, our other people that drive forklifts or 
something like that.
    Ms. Jayapal. What about your farm workers? What about the 
people who are--who are directly picking the fruits and 
working, as Ms. Arteaga?
    Mr. Brim. Well, there is certainly a training period for 
anything you do no matter what you do and----
    Ms. Jayapal. Thank you.
    Mr. Brim [continuing]. And, certainly, once we train those 
people then they are--we love to have them repeat visit us 
because we don't have to do the retraining program with them.
    Ms. Jayapal. Absolutely. One of the things I kept hearing 
from my growers is, this is a skilled job and we should really 
be calling these workers essential workers, not unskilled 
workers.
    I am concerned by reports that eliminating immigrant labor 
could cut U.S. economic output by $32 billion, resulting in 
over 200,000 fewer jobs nationwide, and the dairy lobby has 
said that immigration raids that target dairy workers could 
result in the price of milk--for a gallon of milk rising to $8.
    So, Mr. Brim, could you tell me what the consequences of 
losing the immigrant workforce would be?
    Mr. Brim. It would be devastating for all of us in the 
farming industry. We have to have labor. They love coming up 
and working for us. We have--we started the H2-A program in 
1997 and we have some of the same people coming back every 
year--probably 80 percent of them coming back every year to 
work for us.
    Ms. Jayapal. Thank you. And Mr. Brim, in the past you have 
said if you don't have immigration you will quit eating.
    Mr. Rodriguez, I know my time has expired and so I just 
wanted to thank you. I had some questions for you I didn't get 
to but I wanted to thank you for your decades of service and 
for raising issues that are so critical in advocating for our 
farm workers across the country.
    Thank you.
    Mr. Rodriguez. Thank you very much.
    Ms. Lofgren. The gentlelady's time has expired.
    I will turn now to the ranking member of the subcommittee, 
Mr. Buck, for his five minutes.
    Mr. Buck. So I had the pleasure of working on my aunt and 
uncle's ranch for 10 years--a ranch/farm operation--and it 
occurred--I witnessed, I suppose, when an employee received a 
green card, so went from an H2-A program and received a green 
card, they no longer stayed in the country and worked on the 
ranch. What they would typically do is to go into town and get 
a job with a landscaper or some other employer.
    I will start with you, Mr. Brim, but I would like to hear 
from three of the witnesses about what would be the impact in 
terms of a permanent legal status or a green card status for--
on the agriculture industry?
    Mr. Brim. It would be devastating for the farmers. Because 
of the illegal status of the people they come into our country 
and they start working, and then we take--they get legalized--
the green card--they are going to work somewhere else. They are 
not going to work on the farm. In 1986, I believe, we had 150 
workers that signed up for the bracero program and all of them 
left within six months.
    Mr. Buck. And my understanding is right now--and I talked 
the same thing. In my district we have a lot of cantaloupe and 
watermelon farmers and they love the program, although they 
have problems as everybody does, but they love the program 
because so many of the workers come back to their farms every 
year and are almost as if they are family. They leave in 
October. They come back in April, and they appreciate the fact 
that the program works in that sense.
    But is it your view that changing the program would be 
detrimental to the farmers?
    Mr. Brim. Well, it is according to what we can do as far--
doing the program. I think there is lots of fixes that we can 
make for the program, even the blue card provision.
    Mr. Buck. And I am talking about specifically the change to 
a more permanent status.
    Mr. Brim. Change to a permanent status? Yeah, I think you 
have got to do the fixing to both. If you don't do the fix to 
both, then you are going to ruin the farmers.
    Mr. Buck. And, again, I think this is actually something we 
are trying to figure out in a bipartisan way. This is not by 
any means a partisan issue. I think we really want to make sure 
that the workers and the farmers have a program that works for 
everybody.
    But I want to make sure that--is there a point if someone 
comes through an H2-A program for 10 years then they would 
qualify for a green card? Is there something that we can do in 
the middle of where we are right now where it is either H2-A or 
green card? It is either someone that has an incentive to work 
on the farms or someone that does not have an incentive?
    And I guess I will go to Mr. Nassif with this question.
    Mr. Nassif. Thank you for the question.
    We have never advocated for legal status other than the H2-
A visa for the workers who have been primarily engaged as guest 
workers.
    Mr. Buck. Okay.
    Mr. Nassif. So we don't see that as something we have ever 
supported in the past and, certainly, if that happened we'd 
lose a lot of workers. We'd have a lot of employers that would 
have a difficult time with that.
    But we have advocated for our existing workers to work for 
a couple of years before they are eligible, work for another 
three to five years in agriculture after that, understanding 
that they are going to go on, as you say, and work in other 
industries where the work is not as arduous. But that is 
understandable.
    Our workforce is aging and the average is about 40 years 
old. Farm workers are not raising their kids to be farm workers 
anymore. So----
    Mr. Buck. Right. I need to go to Mr. Rodriguez with the 
rest of this question, if I can, for a short answer.
    Yes, sir?
    Mr. Rodriguez. I would just say that in regards to farm 
workers getting legal status, I mean, there is eight farm 
workers that are here from different states, different crops, 
different industries, and they all have legal status. And for 
them, agriculture is a profession and they are very skilled at 
it and they have stayed in the agricultural industry.
    I think, overall, the reality is that we have to figure out 
a way within the AG industries how are we going to elevate the 
status of the workforce; how are we going to provide them with 
enough wages, with benefits, with other types of things that 
will keep them in agriculture and keep anybody who is coming in 
as an H2-A worker, keep them in agriculture as well regardless 
of whether they have legal status or not.
    Mr. Buck. Okay. And thank you. And for the last few moments 
that I have, I just wanted to thank my friend, Congressman 
Panetta, for being here.
    Oftentimes, people are here when they get introduced. 
Congressman Panetta is here because he is interested in the 
subject and taking notes on it, and I really appreciate the 
fact that you participated today. Thank you.
    I yield back.
    Ms. Lofgren. Thank you very much.
    I would like to recognize Mr. Correa for his questions at 
this time.
    Mr. Correa. Thank you, Madam Chair Lofgren and Ranking 
Member, for holding this most important hearing. I want to 
thank the witnesses here today. I hear a lot of commonality 
when it comes to where we need to go. I hope we don't get 
caught up in the weeds and get somewhere where it actually 
works for everybody.
    [Speaking foreign language.]
    Mr. Correa. Let me say that I want to concur with all of 
you in wanting to keep AG as an important industry in our 
country. It is one of the top industries in California.
    It is one of the top industries in this nation and I want 
to make sure we continue to be the breadbasket to the world. I 
want to make sure that when there is any crisis around the 
world, whether political or otherwise, people can rely on 
America to feed the rest of the world, and that means we have 
to continue to focus on AG and take care of AG.
    When I was growing up I spent many summers in Central 
California picking oranges and plums. And Ms. Arteaga, you are 
absolutely right. You got to get up really early in the morning 
because you got to quit by the time that sun gets right up 
there and it is too hot to work.
    So you are out there at 5:00 in the morning and you quit by 
12:00 or 1:00. A lot of hard work but a lot of honest work. I 
have a cousin, a cousin who came from Mexico. Went to Idaho.
    [Speaking foreign language.]
    Mr. Correa. Undocumented. He ended up getting a green card, 
and he stayed as a worker on those potato farms because that 
was his calling. That is where he was happy.
    And today, as I close my eyes and I think about all the 
years of work we have done in California to protect the farm 
workers, to make sure they live a decent life.
    And, Mr. Tom Nassif, conversations that we have had over 
the years on immigration reform and just listening to your 
discussion here today, I am asking myself what is the best way 
to continue to have a strong workforce in America. Our 
workforce, Mr. Tom Nassif, is aging very quickly.
    In Orange County, where unemployment rate is 3 percent--
less than 3 percent right now, a lot of the workers we have 
that take care of our lawns, cook our food, take care of our 
families, are undocumented.
    And I can say, Mr. Brim, a lot of the times when they get a 
green card those workers don't shift from one or the other 
because a lot of the workers that I have just described are 
undocumented.
    California is still a big area of factory manufacturing--a 
lot of undocumented--and the question I ask myself is why can't 
we have just one pathway to citizenship for our workers?
    Because everybody that comes to America works hard to 
enrich this country, to make us strong, deserves to be an 
American someday, and if--I think if you give folks that green 
card and you give them the hope of being an American, they are 
going to work really hard because they are already proud of 
their work product.
    And I hope all of us today and in the very near future can 
talk about how to get there, an immigration reform that 
strengthens America by bringing us the hard workers that we 
need and keeping them--keeping them here legally.
    I am going to have a quick question because I am running 
out of time. It is for all of you. Why not a pathway to 
citizenship for all workers?
    Historically, people came from Europe. Everybody had a 
pathway to citizenship. I don't know why this last group of 
workers can't have that same opportunity.
    Open it up for all of you.
    Mr. Nassif. Well, as we--as you know, we have advocated for 
a pathway for the existing workforce that are undocumented, as 
they have shown allegiance to the industry. They have worked 
hard and, as I say, paid their taxes and they have got strong 
ties to the community.
    They have children there, and I think we have to give them 
some sort of legal status and I think we have to protect their 
families additionally. We, obviously, have a way for everyone 
to become a U.S. citizen through the normal process. The 
question is do we make exceptions in specific instances. 
Sometimes you have to say yes and sometimes you have to say no.
    Mr. Correa. Yeah. When do you think we have to make 
exceptions?
    Mr. Nassif. I think there should be exceptions for our 
existing workers who obey the law, been here for a long time, 
worked very hard in the industry. I think they deserve a 
pathway.
    Mr. Correa. I think everybody that works hard and obeys the 
laws and pays the taxes deserves a pathway to citizenship.
    I am running out of time. Love to talk to you offline some 
more later on.
    Mr. Nassif. I appreciate it.
    Mr. Correa. Thank you very much and I welcome all of you 
again.
    Ms. Lofgren. The gentleman yields back and the gentleman 
from North Dakota, who is sitting in now as ranking member, is 
recognized for his questions.
    Mr. Armstrong. Madam Chair, and I appreciate that debate. I 
think that debate gets broader than the actual workforce 
challenge that we sometimes face.
    North Dakota is number one in the entire nation in 
producing barley, beans, pinto beans, canola, flax, honey, 
wheat, durum. We are number two in sunflowers and we are number 
three in sugar beets.
    And if there is one issue I get more calls on my office on 
than anything else it is this program, and it goes to what we 
were saying about a program of last resort.
    Just in the last several days we--well, and I want to go 
back to what was said earlier about temporary work status and 
getting up in the morning. North Dakota doesn't have large-
scale production agriculture.
    We actually have a ban on family--on corporate farming in 
our state, and so when we are talking about getting up at 4:00 
a.m. and calving or going out, it is usually when we are--when 
we are bringing the workforce in whether they are coming from 
Georgia, Honduras, Mexico, or South Africa, the owner of the 
farms are with them at 4:00 a.m. and they are continuing in 
doing that producing.
    But so I think--and I think we also have to get past this 
concept of seasonal work, because if anybody understands 
seasons it is people in North Dakota. But the reality is 
agriculture is a 24/7/365 job.
    Whether you are planting in the spring, harvesting in the 
fall, fixing the shed in the winter or doing--or running a 
cattle operation whether it is dairy or a feed lot. And the 
restrictions that we see coming in on seasonal workers--I have 
a very good friend who runs a cattle operation in Leeds, North 
Dakota. She has had the same job advertised nationally for 
seven years and cannot get it filled.
    So when we talk about opportunities from the American 
workforce and she continues to apply for H2-A visas and then 
gets told she is running out of her seasonal--she has to skip a 
season. Well, if you are in a feed life and your season ends 
March 30th, your second season begins April 1st. I mean, that 
is the reality of how this works.
    I had another friend who has a house for his temporary 
workforce in a community hooked up to water but in the winter 
he winterizes it because he only uses it for seasonal work. 
USDA wouldn't grant him his--wouldn't grant him his or wouldn't 
grant him permission to have his visa because they couldn't see 
running water coming out of the tap.
    So there are real structural inhibitions that we do to 
this. But we also have 30,000 open jobs in our community and in 
our economy, and we have been blessed with an oil boom in 
western North Dakota and throughout the last 12 years we have 
had--we have managed to weather these processes better than 
anybody else.
    But what we want is a workforce. We want people to come in, 
and I would prefer we--I think we need to get creative with 
these things. We should be allowed to do a temporary workforce, 
allow these programs to go--allow people to keep the workers 
they want.
    If they keep them for 10 years--I mean, you are going to--
you age out of this type of labor just based on the fact that 
it is incredibly difficult labor, and allow family farmers to 
sponsor people. I mean, we should be having all of these 
conversations and we should continue to work for it.
    So I guess I will start with Mr. Nassif. I mean, if you 
could pick two things to streamline the H2-A process, like, the 
burdens that really truly hit it, what would they be?
    Mr. Nassif. Well, we have talked about the complexity of 
getting workers to the fields on time when the harvest is 
needed and not having sufficient laborers when the harvest is 
really there.
    So an expedited process makes it less complicated, less 
expensive, less legalistic would, of course, be a big fix.
    But I think we have to really look at this issue of a cap 
very closely because what is the reason for a cap? Is you want 
to make sure that you don't take American jobs--that you limit 
it to just what you need and not hire more people.
    So we know that people who are here legally don't want the 
jobs. They are not displacing anybody. So what is the purpose 
of the cap? Nobody hires more workers than they need because 
that is not a smart economic model in any business. So those 
two items, I think, are both very important.
    Mr. Armstrong. Is H2-A capped?
    Mr. Nassif. No.
    Mr. Armstrong. And then so--and then I guess my question 
and, for me, it is, I mean, obviously, regional and territorial 
to some degree. How do we--I mean, how do we work for these 
situations where the workforce is, I mean, very different in 
California than it is in North Dakota.
    I mean, we need AG workers in North Dakota. Have needed 
them for 30 years. We will take them from anyone who is willing 
to work and be a part of our communities. We would love to have 
them. But has there any--been any discussion about how we do 
this in a regional--in a regional manner?
    Mr. Nassif. Well, obviously, if you have--if it is uncapped 
then all regions are equal. If you have a capped program and 
you have to allocate between regions how do you do that? 
California has about 400,000 to 500,000.
    Are you going to give them all to California or are you 
going to try and spread them out to other areas that are 
desperately in need also?
    Mr. Armstrong. Well, and I think anybody who likes honey 
would like some of them to come to North Dakota as well.
    With that, I yield.
    Ms. Lofgren. The gentleman yields back.
    The gentlelady from Texas, Ms. Garcia, is recognized for 
her questions.
    Ms. Garcia. Thank you, Madam Chair, and thank you again for 
holding this hearing. This is something that I have followed 
for many years as someone who grew up and, Ms. Arteaga, at your 
age my first real job where I actually got paid--didn't get to 
keep the money because it went to the family kitty--was picking 
cotton.
    So I know about getting up at 5:00 o'clock in the morning 
to get ready so that the--the wagons came by to get on--get out 
there and start working.
    So it is not an easy job and I want to welcome all the 
other members of Mr. Rodriguez's group that are here.
    [Speaking foreign language.]
    Ms. Garcia. So thank you again for all your work and I want 
to start with you, Ms. Arteaga, because I think--I think people 
don't really quite understand that even though you and I have 
probably a couple of generations difference in age, that even 
though the difficulties I saw when I worked the fields and had 
to pick cotton, and it wasn't for fun--it was to keep my family 
together, as I am sure it was your reason--that so many things 
just haven't changed. You know, the need for rest breaks, the 
need for medical care, the education.
    The--you know, one of the things I hated the most was 
having to remember to put, you know, either a piece of old 
newspaper or a page from the Sears Roebuck in my pocket so when 
it was time to the go to the bathroom in the woods I would have 
something, right, to clean myself with.
    I mean, some of the things still exist in some of these 
fields. So what--if we could do an addition to a pathway for 
citizenship or, you know, some of the things that we are 
discussing here today, what is a simple, most important thing 
that this Congress could do to help farm workers today?
    Ms. Arteaga. Just one thing? Because there is pesticides, 
there is shade protection for workers. I know that it is 
established in California but there is other states like 
Washington, I know firsthand, that they also get, you know, 
temperatures over 100 degrees. Idaho as well.
    So I think it is hard to say just one but----
    Ms. Garcia. But if you had to prioritize it, I mean, if you 
would get one wish today.
    Ms. Arteaga. Aside from a pathway to legalization?
    Ms. Garcia. Right, because that is already kind of on our 
list today.
    Ms. Arteaga. Well, that is a good question. That is--I 
don't know how to answer that in one single term. But I think 
pesticides is up there.
    Ms. Garcia. Well, I don't have a lifeline for you but--
well, think about it. I will ask Mr. Rodriguez the same 
question.
    Mr. Rodriguez, how about you, sir? I have also followed the 
farm worker movement since it started. I had the pleasure of 
meeting Cesar and he was always one of my heroes.
    If there was one thing we could change in Congress today, 
aside from the citizenship and the visa status that we are 
talking about and the bill itself?
    Mr. Rodriguez. I think farm workers, like any other worker 
here in this country, I mean, they have to be able to sustain 
their family--themselves and their family. So the economic 
situation of farm work has to be elevated.
    I mean, we can't expect people to go into the most 
difficult work that there is in our nation and to--and the 
conditions that they are confronted with and not pay them a 
decent wage like anybody else.
    And so if we don't deal with that particular issue then it 
is going to be very difficult to--not only to attract people 
but to keep them there.
    Ms. Garcia. Well, I agree with you, and I was very 
encouraged. Mr. Nassif said in his written testimony and 
repeated that he was looking for legal status not just for the 
worker but for the entire family and that the entire family 
should be kept together and that there was nothing more 
important than the dignity of the worker and their family.
    So I was really pleased to see someone representing the 
growers to say that, and Mr. Nassif, I just wanted to ask you a 
question.
    Just to be clear, when you say you believe in legal status, 
do you mean full permanent citizen or are you just referring to 
the legal status of the visa itself?
    Mr. Nassif. Well, for us we are very interested in making 
sure that we have a legal status. We believe that that status 
should be determined by those people who have political 
interests in what that should be.
    For us, this is an economic issue and a humanitarian issue.
    Ms. Garcia. Right. Well----
    Mr. Nassif. We have worked very hard for, you know, some 
sort of work permit for those existing workers, something that 
gives them the freedom to stay in this country with their 
families and continue to work in agriculture.
    Ms. Garcia. Well, good. I am very encouraged by that 
because often when I have heard this debate before it is always 
the focus on the worker and the work and the work, and, you 
know, the worker is not a machine.
    They have to be seen as people. They have to be seen as, 
you know, the breadwinners that they are, the mothers, the 
fathers, the children, especially the children, and I have 
always--you know, I sometimes wonder how people got away with 
putting me to work at nine.
    But I had to do it. It was part of helping my family. So 
that violation of the OSHA requirements and the child labor 
laws, all the things together--I mean, to me, we need to go 
beyond just worrying about just, well, we have work to do.
    Well, it is work to do but we got to think about the people 
involved and treat them with that dignity and respect that you 
are talking about.
    I see my time is up, and Ms. Arteaga, I will visit with you 
afterwards. Maybe you will tell me what your wish is. 
[Laughter.]
    Ms. Arteaga. Overtime for farm workers. That is my final 
answer. [Laughter.]
    Ms. Garcia. What is your final answer? Overtime?
    That would have been great, wouldn't it?
    Ms. Arteaga. Overtime would benefit my parent--my mom, 
specifically, who is still working actually today. Shout out to 
my mom.
    Ms. Garcia. Yeah.
    Ms. Arteaga. But she is out there in the fields in Idaho 
today working. So overtime.
    Ms. Garcia. Yeah. They were always 12- or 14-hour days, 
weren't they?
    Ms. Arteaga. Yeah.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Garcia. Thank you.
    Ms. Lofgren. We would like to recognize the gentleman from 
Colorado, Mr. Neguse, for his questions.
    Mr. Neguse. Thank you, Madam Chairwoman, and thank you for 
hosting this important hearing. Thank you to the witnesses for 
their testimony and also thank you to my colleague, 
Representative Buck, the ranking member from Colorado.
    In my home state of Colorado, as Representative Buck 
mentioned, agriculture is an integral part of our economy. 
Generates more than $40 billion in economic activity annually. 
It supports more than 170,000 jobs with cattle and calves 
making up over 50 percent of all the receipts.
    My district--I represent northern Colorado, the 2nd 
Congressional District. A privilege to be home. There are some 
amazing farms and organic dairy producers, many of which I 
understand are also represented by the Western Growers.
    And these great farms and, by extension, great products are 
certainly something we should be proud of. But, fundamentally, 
they are only as good as their backbone, which is their 
employees--the farm workers who work in their fields.
    Over the past few months, I have had the privilege of 
serving in Congress. I have certainly received troubling calls 
from farmers and others concerned about the shortage in 
agricultural workers and deficiencies in the H2-A program.
    Many of my constituents are asking for a congressional 
solution to what is causing immense strain on the viability of 
farmers everywhere.
    And so I appreciate the chairwoman's efforts and also the 
ranking member's comments with respect to trying to find a way 
to come up with meaningful solutions to ensure a viable and 
stable future for U.S. agriculture, not just the farmers and 
the dairy producers in my district but for the wonderful 
agriculture workers who are the backbone to our nation's food 
security.
    Mr. Nassif, I want to start with you. You know, as you 
rightly pointed out in your testimony--I believe your written 
testimony--my beautiful home state of Colorado has an 
incredible farming heritage including a large dairy operations 
as has been adduced during the hearing today, and you have 
pointed out dairy producers have been unable to leverage the 
labor resources of the H2-A program.
    Dairy production is a year-long process, as my colleague 
from North Dakota also referenced, and the Immigration 
Nationality Act authorizes the lawful admission to the United 
States of temporary non-immigrant workers to perform 
agriculture labor or services of a temporary seasonal nature, 
thus, by plain definition dairy workers cannot receive H2-A 
visas.
    So I am curious, if you could speak to the need for a more 
flexible and efficient agriculture worker visa program, one 
that would encompass all farmers, dairy alike, and how we can 
best retain skilled labor within the United States.
    Mr. Nassif. Well, I think certainly for the dairy workers 
the simple answer is to change the definition from seasonal 
temporary to year-round workers.
    I don't think there is anybody in agriculture that isn't 
supportive of that. And while it might make--obviously, there 
is going to be a request for more visas--H2-A visas--so that is 
very competitive.
    But the dairy industry is so fundamental to this country 
that the--it doesn't make sense to say because you are year 
round you shouldn't have access to foreign workers on a visa 
basis.
    Mr. Neguse. Thank you, Mr. Nassif, and it is----
    Mr. Brim. Sir, can I respond to that as well?
    Mr. Neguse. Sure, Mr. Brim.
    Mr. Brim. In the southeastern United States we are really 
hardworking. We work long hours. I am the first one at the farm 
every day. The visa workers that we have they are great people. 
We appreciate them coming to work for us.
    But the dairy people in the state of Georgia are just 
suffering really bad because of the targets they are getting 
from ICE or whoever else that comes in--wage an hour or 
whatever.
    And our group here in the southeastern United States 
produce people are year-round farms. So we need to extend this. 
Even if you make a person temporary and the season--the job 
full time, we have to have them full time. We can't--we can't 
farm for 10 months down in our area.
    Mr. Neguse. And I would say--thank you, Mr. Brim--you know, 
it is eminently frustrating that it is such a simple fix, 
right, that Congress--I mean, obviously, the Department of 
Labor, to the extent it comports with the statute that could 
change this----
    Mr. Brim. I would be glad to help you write it if you want 
me to. [Laughter.]
    Mr. Neguse [continuing]. To change this regulatorily. 
Although I will also say that while I agree and I think that 
eliminating that restriction makes a whole lot of sense, it, I 
think, is part and parcel to the larger conversation that we 
have been having and that multiple members have referenced with 
respect to also finding a pathway to legal status for the 
individuals who are doing this work to the--because, again, I 
think agriculture--the industry, as I see it, is saying that it 
is not seasonal in nature and that this is work that could 
continue and should continue year round and would apply to 
broader industries than perhaps the industries that it applies 
to today and I would think that providing a legal path--excuse 
me, a path to legal status for those individuals who are 
working so incredibly hard in our country to feed our families 
I would just think is something that this Congress could, I 
would hope, rally around.
    With that, I see my time has expired and so I will yield 
back to the chairwoman.
    Ms. Lofgren. The gentleman yields back.
    I would recognize now the gentlelady from Florida, Ms. 
Mucarsel-Powell, for her questions.
    Ms. Mucarsel-Powell. Thank you, Madam Chairman--Chairwoman.
    Thank you so much for the panel for being here today. I 
think it is a very important issue.
    [Speaking foreign language.]
    Ms. Mucarsel-Powell. Sorry for that. Is that allowed in 
committee----
    Ms. Lofgren. You just did it.
    Ms. Mucarsel-Powell [continuing]. To just go off in a 
different language? [Laughter.]
    Ms. Lofgren. Yeah. It is fine.
    Ms. Mucarsel-Powell. Leave it to the Ecuadorean immigrant 
to do that.
    I represent a district where a large portion of the sector 
represents an agricultural sector and that industry is really 
fighting for its survival. I have met with agricultural owners 
who are in dire need for labor.
    They tell me that the H2 visa program has been very 
difficult because they actually--we have a shortage of housing 
and that you must provide housing.
    At the same time, our migrant workers have come to me in 
desperation because they are not treated fairly. They are not 
paid fair wages.
    Some of the wages that they receive are used as a 
bargaining chip when they need, you know, their basic 
necessities and then they are selling them these necessities 
two or three times higher prices in the areas where they live.
    And I think that it is important that we are having this 
conversation today because I know that many farm owners want to 
find a solution. You want to take care of your workers. And at 
the same time, we have our farm workers who are feeding us.
    We produce the highest rate of green beans in the country 
throughout the entire year. So if you are eating green beans, 
that is coming from my district, from south Florida.
    We are eating the food that would not be available to us if 
it weren't for their hard work every day. So I think that it is 
imperative for Congress to find a permanent solution--not 
temporary work, but a permanent legal solution for the 
thousands of farm workers that are living in this country.
    So to that I would like to ask, first, Mr. Rodriguez, I 
know that the H2-A program has been criticized by some as not 
doing enough to protect the U.S. wages and prevent the 
exploitation of workers.
    What aspects of the H2-A program do you believe should be 
retained, if any, and which aspects should be removed?
    Mr. Rodriguez. I don't think I have enough time to talk 
about both of those in depth. But I would just say that H2-A 
workers need to be treated like any other worker living in this 
country, have the same opportunities and the same rights and so 
forth.
    They definitely--there definitely needs to be a issue with 
wages because they are trying to sustain not only themselves 
here when they are working in this country but also take care 
of the families that they left behind and dealing with.
    So the economic issue is an important one. Obviously, 
housing is very critical. We don't want people--I mean, we all 
know what it used to be here in America in terms of where farm 
workers lived and so forth.
    We don't want to relive that all over again. Transportation 
issues--once they are here they don't have access to 
transportation. They are not coming with a vehicle.
    So they need to be able to have transportation to come and 
go from this country and taken care of that in particular way.
    In regards to--and then we have to deal with the 
recruitment issue. Lots of H2-A workers are recruited by 
agencies and programs that force them to pay a fee--a 
recruitment fee that goes into the hundreds if not thousands of 
dollars.
    So they come here feeling like they are in debt. They are 
fearful because of the fact that they can't do anything to 
create problems with that particular employer or that 
particular job, or supervisor, foremen, or whatever because 
they will lose that job. And then they can't deal with paying 
back the debts and so forth.
    So, I mean, those are just some--quickly, some of the 
issues that concern us about the H2-A program.
    Ms. Mucarsel-Powell. Thank you, Mr. Rodriguez.
    And, quickly, Mr. Nassif, what do you think are the 
challenges right now, the challenges affecting the agricultural 
sector? Why are they different today than they were, say, back 
in 2006?
    Mr. Nassif. Well, they have been difficult for many years. 
I have been working on this issue for 18 years myself and part 
of that I was an agriculture labor lawyer representing the 
employers--the farmers and ranchers--in the negotiations. Had 
many of these negotiations with the United Farm Workers union.
    So many of the problems are exactly the same. It is just 
that nobody has done anything about it for so long because that 
has always been such a political hot potato.
    When we look at the bare facts and we look at the 
economics, we look at the dramatic need for these workers and 
the value that they provide, because, frankly, what would we be 
without those farm workers?
    We have to give consideration to how we treat them. Very 
true. Now, with H2-A workers, they come here with a 
nonimmigrant intent. That is why they go into the H2-A program. 
If they had an immigrant intent they probably would just cross 
the border or stay illegally and go to work for someone using a 
false document.
    So we don't see the need to change what we have got in H2-A 
because when you do that then you just risk more and more 
workers leaving all the time.
    We are already going to lose people if we have some sort of 
legal status for our existing workforce than if you now give 
the guest workers the same opportunity for that then you make 
them--give them immigrant status, then you risk losing them 
along with everybody else because, as everyone says, they are 
not going to stay in agriculture.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Mucarsel-Powell. Thank you, Madam.
    Ms. Lofgren. And I would like to turn to the gentlelady 
from Texas, Ms. Escobar, for her questions.
    Ms. Escobar. Thank you so much, Madam Chair, and many 
thanks to the panelists and witnesses here today. I am so 
grateful for your wisdom and for your advocacy.
    [Speaking foreign language.]
    Ms. Escobar. I have--Ms. Arteaga, and congratulations on 
your accomplishments. It is wonderful to know about them and 
hear about them.
    You did not get an opportunity to respond to a question, 
and the question came as a result of something that Mr. Brim 
mentioned, which was that it would be devastating to give visa 
holders legal status, essentially, because once that legal 
status is attained they then move away from working in the 
fields and get other jobs.
    I am interested in your response.
    Ms. Arteaga. Thank you for giving me the opportunity to 
speak on this.
    When I speak to farm workers and they have 20-plus, you 
know, years of experience in this job, it is--it is them. It is 
a part of them. Being a farm worker is them.
    My mother--I don't know what else she would be doing 
besides being a farm worker. My father--I don't know what else 
he would be doing besides being a dairy worker. That is who 
they are.
    Thank you.
    Ms. Escobar. Thank you for your response.
    And I am going to ask the same question of Mr. Nassif and 
Mr. Rodriguez. And Mr. Nassif, in your testimony, you mentioned 
that the average age of farm workers is now over 40. What do 
you think the workforce will look like 10 years from now?
    Mr. Nassif. Well, I believe it is, obviously, going to be 
much reduced. You have got--you have got the fact that people 
in Mexico that have traditionally come over here to work in 
agriculture are doing so at a lesser rate.
    They are better educated. They have more opportunities in 
their home country. They are actually importing farm workers 
into Mexico. So our work force is going to keep reducing and 
reducing.
    So what we have tried to do is two things. One, obviously, 
try to get immigration reform to help resolve at least part of 
that problem, and the other is to try and create mechanized and 
innovative ways to reduce our reliance on manual labor, to make 
it easier to reduce our reliance on water and fertilizers.
    So we created a center for innovation and technology in 
Salinas about three years ago and we are looking for solutions 
to that. But it is an extremely expensive process. We have got 
some help in the Farm Bill, I think, on the innovation front.
    But it is going to take a long time and only the wealthiest 
of the farmers are going to be able to do it by themselves. We 
want all farmers to participate and we want farm workers to 
have some place to go--better jobs, more technological, less 
manual labor.
    Ms. Escobar. Thank you, sir.
    Mr. Rodriguez, same question for you. What do you think the 
work force will look like 10 years from now?
    Mr. Rodriguez. You know, I think that, one, is that, 
obviously, they are going to continue to age. We don't have 
enough young workers coming in to the workforce to do the 
necessary work that have the skills and have the knowledge and 
so forth.
    And then we are going to become then reliant on other folks 
that are not necessarily born and raised here in the United 
States. So we already have an immigrant workforce--practically 
99 percent immigrant, highly undocumented--and if we don't do 
something to change immigration reform it is going to be even 
more undocumented.
    And there is going to be more fear and more problems 
attracting and keeping workers here in this country to be able 
to do the AG work.
    Ms. Escobar. And just to clarify, you believe that our 
workers have earned a path to citizenship. Is that correct?
    Mr. Rodriguez. There is no doubt in our minds that workers 
come here. They work hard. They come here because they want to 
contribute. They want to provide for their families like 
anybody else does in this country and they don't want to be 
wondering--the children don't want to be wondering if their 
parents are coming home at night, and vice versa, if they are, 
as parents, going to be coming home to their children.
    Ms. Escobar. I agree with you 100 percent.
    One last question, Mr. Rodriguez. In your testimony, you 
shared a bit about the collective agricultural worker 
experience of your members who are here today.
    How long have most non-U.S. farm workers been living and 
working in the United States?
    Mr. Rodriguez. Well, all these folks here have all been--I 
mean, I can talk about Rogelio Lona, who I have known now for 
the last 46 years.
    Rogelio--he is a mushroom worker--a year-round mushroom 
worker and he works extremely hard. He works at a farm now 
where he makes over $40,000 a year and has medical benefits and 
so forth.
    There is no problem with him staying in AG. I mean, that 
has been his life and he has worked there in that industry for 
the last 30-plus years with those kinds of benefits, and it 
kept him there as well as the workforce that he works with 
there at that particular company.
    And so I think that the more we can create those kind of 
situations for workers, the better it is going to be to not 
only attract workers but to keep them there in the industry.
    Ms. Escobar. Thank you so much.
    Ms. Lofgren. The gentlelady's time has expired.
    We have been called to vote. So I will not take my full 
five minutes for questions. I just have a short one.
    Mr. Rodriguez, there has been some discussion about pay. 
What does the average farm worker make per year, both 
undocumented, documented, and H2-A? Do you have those--an 
estimate of the salaries made?
    Mr. Rodriguez. You know, unfortunately, undocumented farm 
workers are making--wherever their particular state has as 
minimum wage, hopefully, they are making at least that. And 
people get hourly rates and get piece rates and so forth.
    I think the average wage, from what I have seen and heard 
in the statistics is around $20,000 a year.
    Ms. Lofgren. So for a farm worker family would----
    Mr. Rodriguez. For a farm worker. I mean for the family.
    Ms. Lofgren. A farm worker.
    On the H2-A program, what are people earning a year?
    Mr. Rodriguez. That I don't know. I am not sure.
    Ms. Lofgren. Okay. We will try and--do you know that, Tom?
    Mr. Nassif. What was the question?
    Ms. Lofgren. What is the average wage for an H2-A worker?
    Mr. Nassif. Well, the AEWR, the adverse effective wage rate 
is different for every state.
    Ms. Lofgren. Right.
    Mr. Nassif. For example, Arizona is $12. California is 
$13.92. Colorado is $13.13.
    Ms. Lofgren. That is per hour?
    Mr. Nassif. New Mexico is $12.00 per hour. Yes.
    Ms. Lofgren. Right. Right.
    So it is not a great huge salary, although if you are from 
a very poor area, you know, it looks good compared to what you 
might be earning in some parts of the country.
    Mr. Nassif. That is if you are working by the hour. If you 
are working on a piece rate, it is much higher.
    Ms. Lofgren. Right. Right.
    Mr. Nassif. Strawberries are $20, $30.
    Ms. Lofgren. Right.
    I am going to stop now and say just this. This testimony 
has been very, very helpful to the subcommittee. Obviously, 
there are challenges that we face.
    But I think we all have the goal of making sure that the 
people who work in agriculture can do so legally with dignity 
and to be successful for them and their families and for the 
agricultural industry.
    And I have a sense of optimism that, working together with 
the growers and the farmers and the farm workers, that we can 
come to agreement on what have previously been contentious 
issues and that in that way it will help us to--here in the 
Congress, who sometimes fight about immigration issues, to 
instead come together in a bipartisan way to come up with 
solutions that will work for our country and will make our 
constituents proud.
    So with that, thank you, Mr. Armstrong, and all the members 
of the committee.
    This hearing is adjourned with gratitude to each of you as 
witnesses.
    [Whereupon, at 1:42 p.m., the subcommittee was adjourned.]
      

                                APPENDIX

=======================================================================


               Materials Submitted for the Hearing Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
